OIG Investigative Reports, Tucson Man Faces Federal Charges in Fraudulent Student Loan Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
November 16, 2007
U.S. Department of Justice
Office of the United States Attorney
District of Arizona
for Information Contact Public Affairs
SANDY RAYNOR
Telephone: (602) 514-7625
Cell: (602) 525-2681
TUCSON MAN FACES FEDERAL CHARGES IN FRAUDULENT STUDENT LOAN SCHEME
TUCSON, Ariz. — Stephen Gallagher, 27, of Tucson, was arrested
on November 9, 2007, and made his initial appearance in U.S. District Court
on November 13, 2007 for allegedly engaging in a fraudulent scheme to obtain
student loan funds which netted him over $624,000. On November 15, 2007, a U.S.
Magistrate Judge set a $5,000 cash or corporate surety bond for his release
which was posted later that day.
The criminal complaint, filed on November 8, 2007, alleges that from 2003 to
2007, Gallagher submitted over 200 student loan applications via the Internet
to various financial institutions. The majority of these loan applications originated
from one of eight different America On-Line (AOL) email accounts registered
in the name of Stephen Gallagher. He submitted loan applications in his own
name as well as in the names of unsuspecting individuals, later adding these
other individuals to his bank account so he could deposit the student loan checks
which were made payable in the name of the borrower. Supporting documentation,
such as proof of employment and residence verification, was submitted to each
financial intuition via FAX machine. Much of this documentation was determined
to be fraudulent.
To date, the Federal Bureau of Investigation has identified approximately 42
fraudulent student loans totaling $624,287.32 to be associated with Gallagher.
Applications were submitted for attendance at Stanford University, George Washington
University, University of Arizona, and Scottsdale Culinary Institute. None of
the individuals listed as the borrower on the student loan applications ever
attended these institutions. The financial institutions that funded the student
loans include: First Marblehead, Wells Fargo, Key Bank, Education Finance Partners,
Suntrust, JP Morgan Chase Bank, Chela Funding, Richland Bank, and Sallie Mae.
In total, Gallagher applied for over $10 million in student loan funds from
these financial institutions.
A conviction for bank fraud carries a maximum penalty of 30 years in federal
prison, a $1 million fine, or both. A criminal complaint is simply the method
by which a person is charged with criminal activity and raises no inference
of guilt. An individual is presumed innocent until competent evidence is presented
to a jury that establishes guilt beyond a reasonable doubt.
The investigation was conducted by the Federal Bureau of Investigation with
assistance from the U.S. Department of Education. The prosecution is being handled
by Eric Markovich, Assistant U.S. Attorney, District of Arizona, Tucson, Ariz.
CASE NUMBER: 07-02408M
RELEASE NUMBER: 2007-238(Gallagher)
Top
Printable view
Share this page
Last Modified: 11/20/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov